j
I

;

APPENDIX

:
1

::
!
!
!

;

i

-'noyicev ::

The text of this order may
be changed or corrected
prior to the time for filing of
a Petition for Rehearing or
the disposition of the same.

No. 1-18-0883
Order filed March 4,2020
Third Division

IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,

)
)
)

Appeal from the
Circuit Court of
Cook County.

)

v.

)

No.l2CR 19150

)

JEROME ADAMS,

)
)
)

Defendant-Appellant.

Honorable
James M. Obbish,
Judge, presiding.

JUSTICE McBRIDE delivered the judgment of the court.
Presiding Justice Ellis and Justice Cobbs concurred in the judgment.
SUMMARY ORDER

11

Defendant Jerome Adams appeals from an order of the circuit court of Cook County

denying sua sponte his pro se petition for relief from judgment filed under section 2-1401 of the
Code of Civil Procedure (Code) (735 ILCS 5/2-1401 (West 2018)).
Following a 2014 bench trial, defendant was convicted of attempted first degree murder
for shooting Michael Gray in the head (720 ILCS 5/8-4(a), 9-1(a)(1) (West 2012)). The trial
court sentenced defendant to 10 years’ imprisonment for attempted murder, plus an additional
25-year sentencing enhancement for personally discharging the firearm that caused great bodily

KPTENiMX'h

No. 1-18-0883

Office of the State Appellate Defender to withdraw as counsel pursuant to Pennsylvania v
Fmley, 481 U.S. 551 (1987), and affirmed the circuit court’s judgment. People v. Adams, No . 116-1407 (2018) (unpublished summary order under Supreme Court Rule 23(c)).
Tf 6

On January 24, 2018, defendant filed the instant pro se petition for relief from judgment

under section 2-1401 of the Code, again challenging the constitutionality of the firearm
sentencing enhancement statute. Defendant asserts that the claims in his current petition differ
from the grounds set forth in his prior pleadings. Defendant alleges that the sentencing
enhancement statute violates the proportionate penalties clause of the Illinois Constitution as
found by our supreme court in People v. Morgan, 203 Ill. 2d 470 (2003), overruled by People v.
Sharpe, 216 Ill. 2d 481 (2005). Defendant acknowledges that Sharpe overruled Morgan, but
argues that Sharpe was poorly reasoned, wrongly decided, and must be overruled. Defendant
also alleges that the sentencing enhancement statute violates the due process clause of the United
States and Illinois Constitutions because it applies to offenders who merely choose to use a
firearm to commit attempted first degree murder, and as such, is an invalid exercise of the state
legislature’s police power. Defendant argues that the legislature’s purpose and objective to deter
the use of firearms in the commission of felony offenses has not been achieved or accomplished
since the enhancement statute became effective. Therefore, he argues, because the enhancement
is not reasonably designed to remedy the evil which the legislature determined was a great threat
to the public, it is in contravention of the legislature’ s intent, and thus, violates due process.

17

The circuit court found that defendant previously raised his constitutional challenges to

the firearm sentencing enhancement in his petitions for declaratory judgment and his 2016
postconviction petition, and therefore, his claims are barred by res judicata. The court further

-3-

mum-h

IN THE CIRCUIT COURT OF COOK COUNTY, ILLIN DIS
COUNTY DEPARTMENT, CRIMINAL DIVISION

filed
1

MAR 2.9*113

)

PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Respondent,
v.
JEROME ADAMS,
Defendant-Petitioner.

)
)
)
)
)
)
)
)
)
)

Post-conviction
12-CR-1915001
Hon. James M. Obbish
Judge Presiding

ORDER
Petitioner, Jerome Adams, seeks relief from the judgment of conviction entered against
him on May 19, 2014. Following a bench trial, the court found petitioner guilty of attempt
murder, 720 ILCS 5/8-4(A) (LEXIS 2012). The court sentenced petitioner to 35 years of
imprisonment in the Illinois Department of Corrections. Petitioner’s sentence includes a 25-year
mandatory enhancement for personally discharging a firearm. As grounds for relief, petitioner
contends that: (1) his 25-year enhancement violates the proportionate penalties clause of the
Illinois Constitution. For the following reasons, the petition is DENIED.
PROCEDURAL HISTORY
On May 19, 2014, petitioner filed a notice of appeal. On February 25, 2016, the appellate
court granted his motion to dismiss his appeal. On August 21, 2014, petitioner filed a document
entitled, “Petition for Declaratory Relief,” asserting that 720 ILCS 5/8-4(c)(l)(B),(C), and (D),
which directs mandatory sentence enhancements based on use of a firearm in the commission of
an offense, was unconstitutional because the statute: (1) violated his due process rights; (2) was
unconstitutionally vague; (3) constituted an impermissible double enhancement; and (4) violated

1

KPtemx-fc

•5 y i . •?.«'

s

! •

' * the proportionate-penalties clause: On‘September' 30,'2014, this court "denied'"his' petition'-as■frivolous, based on well-established Illinois law that the mandatory sentencing enhancement has
been held constitutional on all aforementioned grounds.
On November 6, 2014, petitioner filed a notice of appeal; however, his notice of appeal.
was denied due to its untimeliness. On October 22, 2014, petitioner filed another document
entitled, “Petition for Declaratory Relief,” pursuant to 735 ILCS 5/2-701, again asserting that his
25-year mandatory sentence enhancement was unconstitutional. On January 2, 2015, this court
denied his petition.
On April 30, 2015, petitioner filed a petition which he entitled, “Petition to Quash
Complaint & Dismiss Indictment / Relief of Judgment,” seeking relief pursuant to section 2-1401
of the Code of Civil Procedure. Petitioner asserted that his indictment was void because: the
complaint against him was forged; his indictment was not signed by the foreman of the grand
jury in compliance with 725 ILCS 5/111-3; and that, because of these cumulative defects, the
court lacked both personal and subject matter jurisdiction. This court denied his petition.
On August 10, 2015, petitioner again filed a petition seeking relief from judgment
pursuant to section 2-1401 of the Code of Civil Procedure, 735 ILCS 5/2-1401 (LEXIS 2015).
He asserted, inter alia, that: (1) the complaint filed against him did not comply with 725 ILCS
/

5/ll-3(b) in that it was not signed by the complainant or attested to by a witnessing judge or
court clerk; and (2) his indictment was based upon said defective complaint and was unsupported
by testimony from the complainant or occurrence witnesses. This court denied his petition. On
January 20, 2016, petitioner filed a post-conviction petition, subsequently amended on February
19, 2016, pursuant to Section 2.1 of the Post-Conviction Hearing Act (the Act), 725 ILCS 5/1222.1 (LEXIS 2016), contending: (1) the firearm enhancement applied to his sentence was

2

A&8EWMX -ft

. <.s r

-IwL, i >*+1 aa s

unconstitutional and was- not included within his- indictment; (2)'‘there’were* varioils' issues'' ......
concerning trial testimony; (3) his trial counsel rendered ineffective assistance; and (4) his
appellate counsel rendered ineffective assistance. On April 1, 2016, this court summarily
dismissed the post-conviction petition and assessed filing fees and court costs pursuant to 735
ILCS 5/22-105 (LEXIS 2016) for frivolous and unnecessary filings. It appears petitioner filed a
notice of appeal of the summary dismissal, and it is currently pending. No. 1-16-1407. On
December 23, 2017, petitioner filed

section 2-1401 petition for relief from judgment. On

January 24, 2018, filed another section 2-1401 that appears to be a more complete filing of the
December 23, 2017, filing. The court will address those petitions here.
ANALYSIS
Section 2-1401 is a civil remedy that extends to criminal cases and is a comprehensive
statutory procedure “by which final orders and judgments may be vacated more than 30 days
after their entry.” People v. Shinaul, 2017 IL 120162, K 8. While usually a petition “must be filed
not later than 2 years after the entry of the order of judgment,” People v. Matthews, 2016 IL
%

118114, If 7 (internal citations omitted), a petitioner may also use Section 2-1401 to attack a void
judgment. 735 ILCS 5/2-1401 (f) (LEXIS 2017). A^udgment is void (1) if the court lacked
personal or subject matter jurisdiction or (2) the judgment is based on a facially unconstitutional
statute that is void ab initio. People v. Thompson, 2015 IL 118151, fflf 31-32. In a criminal case,
section 2-1401 is the forum to bring facts to the attention of the court, which, if known at the
time of judgment, would have precluded its entry. People v. Haynes, 192 Ill. 2d 437, 463 (2000).
A section 2-1401 petition does not address errors of law. People v. Lawton, 335 III. App. 3d
1085, 1087 (1st Dist. 2002). Moreover, alternative dispositions are available in section 2-1401
proceedings. The trial judge may (1) dismiss the petition; (2) enter judgment on the pleadings; or

3

fcP'RCNMX -R

as

sasssi

M»sa^g«?«as^^a

«*'.

•-»,r'•*''/••/i.r '.»-»•

(3) grant or deny relief after holding an evidentiary hearing. People

v. Vincent, 226 I11.2d 1, 9

(2007).
Petitioner contends that the 25-year enhancement for personally discharging
resulting in great bodily injury violates the proportionate

a firearm

penalties clause of the Illinois

Constitution. He claims that it shocks the conscience that the enhancement is
possible sentencing range for second degree or attempted second degree murder.

more than the
.

As an initial matter, petitioner has raised this proportionate penalties claim in his •
“Petition for Declaratory Relief’' filed on August 21, 2014, and his initial post-conviction
petition filed on January 20, 2016. The court already denied those claims on September 30

,2014,

and April 1, 2016, respectively, and therefore res judicata bars consideration here.
In its April 1, 2016, order dismissing the post-conviction petition, the

court thoroughly !

and comprehensively addressed this issue, noting that the mandatory sentencing

enhancement

statute has been challenged and upheld. See Order, April 1, 2016, at 8; see People v.
Bloomingburg, 346 Ill. App. 3d 308 (1st Dist. 2004); People v. English, 353 Ill. App. 3d 337 (3rd
Dist. 2004); People v. Thompson, 2013 IL App (1st) 113105; People v. Hale, 2012 IL App (4th)
100949. The law has not changed regarding the constitutionality of the mandatory sentencing :
enhancement, and petitioner has not set forth additional grounds
consider his claim. Accordingly, petitioner’s claim is meritless.

M

on which this court should

4

CONCLUSION

*r-

The court finds that petitioner has failed to state a cognizable claim under section 2-1401.
Accordingly, the section 2-1401 petition for relief from judgment is hereby dismissed. Likewise,
petitioner’s motion to proceed en forma pauperis and motion for appointment of counsel

are

denied.

ENTERED:
DATED:

Ion. James M. Obbish
ircuit Court of Cook County
Hfflwral Division

\9T

ENTERED
MAR 2 y ?0 iti

HJDGE JAMES H.0BBI8
CIRCUIT COURT -1752

5

wfenmx-b

7T

3F

SUPREME COURT OF ILLINOIS

•r

■ —'

'i

f

SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Jerome Adams
Reg. No. R-56070
Menard Correctional Center
P.O. Box 1000
Menard IL 62259

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

May 27, 2020
In re:

People State of Illinois, respondent, v. Jerome Adams, petitioner.
Leave to appeal, Appellate Court, First District.

125895
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 07/01/2020.

Very truly yours,

Clerk of the Supreme Court

mpenmx-c

k

.

1

